                   United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                     Washingto n, DC 20240
                                                                           WR-IS-BLM-0001-2010

                                                                         MAR - 3 2010

The Honorable John Culberson
House of Representatives
Washington, D.C. 20515-4307

Dear Mr. Culberson:

       I am writing in response to your August 6 letter to Secretary of the Interior Ken Salazar,
regarding your constituent, Ms. Barbara King, and her inquiries concerning the Emerald
Mountain Land Exchange in northwest Colorado. The Secretary referred your letter to the
Director of the Bureau of Land Management (BLM), who responded to you in a letter dated
December 31 , 2009, enclosed. My staff evaluated the Director' s response and confirmed the
accuracy of the information provided by BLM.

        In your letter, you asked the Secretary for information regarding the notification provided
to adjacent landowners. In his response, the Director stated that BLM used a variety of means to
notify the public of the proposed exchange and followed all applicable laws and regulations. He
indicated that the notice of the exchange proposal was published in four local newspapers and
that BLM held three public meetings in the area to gather input from the community. He also
stated that all exchange participants were notified directly of the authorized officer' s decision to
approve the exchange, as were jurisdictional, State and local governments, and the congressional
delegation, as required by regulation. Finally, he explained that while Ms. King is an adjacent
land owner, BLM did not notify her of the land exchange because she was not a direct party to
the exchange. Rather, Ms. King had a private, third-party agreement with a land exchange
participant who was directly notified of the exchange proposal and the exchange decision.

        We confirmed that BLM followed applicable laws and regulations regarding the
notification of adjacent landowners. BLM' s public notification process for this exchange also
conformed to the BLM "Land Exchange Handbook" (Handbook) regarding the publication of the
Notice of Exchange Proposal (NOEP). The Handbook specifies that the NOEP be sent to all
authorized users ofthe federal and non-federal land involved in the exchange, to local
government and elected officials, and to the U.S. congressional delegation(s) representing the
land involved in the exchange proposal. The Handbook states that BLM " ... may also send the
NOEP to ... adjoining landowners," but places no requirement on BLM to make such a
notification. We concluded that the guidance in this part of the Handbook is consistent with all
applicable laws and regulations regarding the notification of adjacent landowners.

       While reviewing BLM' s compliance with the Handbook, we noticed one small
inconsistency. Exhibit C of Illustration 4-1 ofthe Handbook provides an example of the type of
checklist BLM offices are expected to use to manage exchange projects. The checklist in the
illustration suggests that a step in the process would be to develop a mailing consultation list that
includes adjacent landowners. This suggested action is inconsistent with applicable laws,
regulations, and the body ofthe Handbook, which do not require that adjacent landowners be
notified. We have notified BLM realty officials of this issue so that the inconsistency can be
corrected in a future release of the Handbook.

        You also asked the Secretary to provide information on the appraisal. In his response, the
Director informed you that the parcels included in the exchange were appraised in accordance
with the appraisal standards set forth in the federal exchange regulations (43 CFR § 2200), and
that the Department of the Interior's Appraisal Services Directorate approved the values for these
lands, as required by Departmental policy. The quality of land appraisals prepared in support of
the Department's land acquisition activities has long been a concern ofthis office, as poor
quality appraisals can result in federal property being undervalued. We therefore reviewed the
appraisal for the parcel ofBLM land adjacent to Ms. King' s property and confirmed that the
appraisal appeared to have been prepared in accordance with federal appraisal standards.

        We found nothing to suggest that the transaction was not compliant with law, policy, and
regulation. BLM' s notification of the public followed all applicable laws and regulations and the
land appraisal was consistent with federal appraisal standards. As such, our staff confirms the
accuracy of the information provided by BLM and concurs with the response made by the
Director.

        If you have any questions, please do not hesitate to call me at (202) 208-5745 or your
staff may call Kris Kolesnik at (202) 513-0326.

                                              Sincerely,



                                              MaryL.
                                              Acting Inspector General

Enclosure




                                                 2
                   United States Department of the Interior
                                   BUREAU OF LAND MANAGEMENT
                                         Washingto n, D.C. 20240
                                            http ://www.blm.gov
                                                                                [DEC   ~ ·. 1   2009
 The Honorable John Culberson
 House of Representatives
 Washington, DC 20515

 Dear Representative Culberson:

 I am writing in response to your letter of August 6,2009 to Secretary of the Interior Ken Salazar,
 regarding your constituent, Ms. Barbara King, and her inquiries regarding the Emerald Mountain
 Land Exchange in northwest Colorado. Secretary Salazar has asked me to respond on his behalf
 and I apologize for the delay. In your letter, you requested that We provide you and Ms. King
 with any information related to the appraisal of the property as well as the steps the Bureau of
 Land Management (BLM) took to notify the public of the exchange. In particular, you asked us
 to address the notification provided to adjacent landowners. You also asked for information
 about the agreement between the BLM and the facilitator, Western Land Group (WLG), and for
 information on the type of oversight mechanisms in place for land exchanges.

We appreciate the opportunity to clarify the issues raised by your constituent. In the late 1990s,
a group of citizens concerned about the possibility that Emerald Mountain would be sold by the
State of Colorado (State), formed a partnership . nam~d the Emerald Mountain Partnership (EMP),
for the purpose of protecting Emerald Mountain from private commercial or residential
development. The EMF worked with WLG and the State of Colorado Land Board to develop a
proposal to present to the BLM to effectuate an assembled land exchange under BLM's
exchange regulations at 43 CFR Part 2200. This assembled land exchange involved parcels of
BLM land that were deemed to be administratively inefficient to manage and therefore worthy of
disposal. The BLM transferred these parcels of land to the State in exchange for land of equal
value at Emerald Mountain. The State worked with WLG to sell the land they received to
private parties. For the administrative convenience of all involved, the exchange was conducted
using an escrow process so that all transactions were completed simultaneously.

Third-party facilitators, such as WLG, are not agents of the Federal govemment and freely
negotiate and participate in real estate transactions at their own risk. That is, at EMP ' s behest,
WLG looked for members of the public who might be interested in participating in the exchange.
WLG would then represent such members of the public in the exchange transaction. Any
compensation that WLG received was a result of financial transactions conducted between WLG
and the private parties that it represented. The BLM did not pay any compensation to WLG.

In 2004, pursuant to 43 CFR 2201.1 , the BLM entered into an Agreement to Initiate (A TI) with
all parties directly involved in the transaction, that is: EMF, WLG (as representative of members
of the public who were exchange participants), and the State. This ATI outlined the roles and
responsibilities of each of the entities in the land exchange, and included a transaction schedule
and costs to be shared. Copies of this document have been provided to Ms. King in response to
her Freedom of Information Act (FOIA) requests. This document and other supplementary
                                                                                                       2


 documents and reports related to the Emerald Mountain Exchange can be found at
 http ://Www.blm.gov/co/stlenifo/lsfo/plans/emerald_mtn.html, under the Documents/Reports
 section.

 The BLM used a variety of means to notify the public of the proposed exchange, following all
 applicable laws and regulations. Notice ofthe exchange proposal was published in four local
 newspapers. In 2005, the exchange was advertised with a Notice of Intent in the Craig Daily
 Press on February 11,18, 25, and March 4; the Hayden Valley Press on February 9, and March 2;
 the Steamboat Pilot February 13, and March 6; and the Moffat County Morning News on
 February 12, 20, 27, and March 6. A copy of the text of the announcement is enclosed.

 These public notices invited interested parties to submit comments to the BLM's Little Snake
 Field Office. The BLM also held three public meetings in the area to gather input from the
 public on March 7, 8 and 9, 2005 in Steamboat Springs, Oak Creek, and Hayden, respectively.

 All exchange participants were notified directly of the authorized officer' s decision to approve
 the exchange, as were jurisdictional, State and local governments, and the congressional
 delegation, as required by regulation. While Ms. King is an adjacent land owner, the BLM did
 not notify her directly of the land exchange, as she was not an exchange participant.

   From information provided by Ms. King's attorney, Mr. Michael Connelly, it appears that Ms .
  .Kinghad an indirect interest in the land exchange through a private, third-party agreement with a
 'land exchange participant. The exchange participant with whom Ms. King had an agreement
 ·was directly notified of the exchange proposal and the exchange decision. While the BLM is
  aware that Ms. King had an arrangement with the exchange participant regarding the eventual
  use and ownership of the parcel at issue, this agreement was a private matter and did not involve
  the BLM in any way. During the .public process and comment period, Ms. King did not raise any
  objections to the disposal of the parcel in question, nor did she at any time request to be
. considered a participant in the exchange.

The parcels included in the exchange wer~ appraised in accordance with the appraisal standards
set forth in the federal exchange regulations (43 CFR Part 2200). All reservations, restrictions,
and encumbrances that would be included in the conveyance documents for the lands were
identified and considered in the appraisal prepared for the properties. In accordance with
Departmental policy, the Department of the Interior' s Appraisal Services Directorate approved
the values for these lands.

The BLM Land Exchange Handbook, H-2200-1, sets out the various procedural steps and
identifies the officials responsible for completion of each step. See H -2200-1 , Illustration 1-1
(enclosed). Before an exchange may proceed, the Regional Solicitor' s Office, the BLM State
Director, the BLM National Land Exchange Team (Pg. 2-9 & 9-3 in BLM Land Exchange
Handbook, H-2200-1), and the Deputy Director of the BLM must all review the proposed
exchange. If the Deputy Director authorizes the exchange to proceed, the actual processing of
the exchange begins. A similar review occurs before the exchange is ultimately completed. The
Emerald Mountain land exchange was conducted according to this procedure. All appropriate
review and approval was obtained and there were no irregularities in the process.
                                                                                                  3



 As of November 2009, the BLM has responded to 15 FOIA requests from Ms. Iqng and her
 attorney. The information provided has ranged from copies of signed agreements and contracts,
 relevant sections of handbooks and memoranda that set forth BLM policy, copies of
 correspondence between entities within the BLM and also with other parties such as WLG,
 information related to the land appraisal process, and steps taken to notify the public of the
 exchange, including adjacent land owners. In its response to her FOIA requests, the BLM has
 provided Ms. King with comprehensive administrative records related to the land exchange. In
 response to a request from Ms. King, the BLM Colorado State Director, David Hunsacker
 thoroughly reviewed the Emerald Mountain Land Exchange and confirmed, by a letter dated
 August 27,2009, that the exchange was conducted properly.

Over the course of the summer of2009, Ms. King contacted the Department of the Interior's
Office of the Assistant Secretary of Lands and Minerals Management, as well as Secretary of the
Interior, Ken Salazar's office, with questions about the exchange. Please find a copy of Deputy
Assistant Secretary Ned Farquhar' s letter to Ms. King enclosed. Counsel representing Ms. King
submitted materials produced by Ms. King for consideration by the Department, and requested
that the Secretary rescind that portion of the exchange involving the parcel that was the subject
of Ms. King's third-party agreement. In July 2009, Representative John Salazar sent a letter on
Ms. King's behalf, requesting that Secretary Salazar have the Department's Inspector General, or
other appropriate Departmental official, examine the appraisal process used in the exchange.

Inquiries to date have provided nothing to suggest that the transaction was not conducted in
compliance with law, policy and regulation. As it appears that Ms. King's dispute is with a
private landowner regarding a third-party agreement to which the' BLM' was not a party, it is
unclear what further assistance the Department could provide in this matter.

Thank you again for your continued interest in the activities of the BLM and the Department
concerning the management of Federal public lands. If you have any questions or issues you
would like to discuss further, please do not hesitate to contact me at (202) 208-3801.

                                                Sincerely,

                                             (7~.~
                                               Robert V. Abbey /
                                               Director


Enclosures
                    United States Department of the Interior
                               OFFICE OF INS PECTOR GEN ERAL
                                     Washingto n, DC 20240
                                                                           WR-IS-BLM-0001-2010


                                                                         MAR - 3 2010

The Honorable John T. Salazar
House of Representatives
Washington, D.C. 20515

Dear Mr. Salazar:

       I am writing in response to your August 6 letter to Secretary of the Interior Ken Salazar,
regarding your constituent, Ms. Barbara King, and her inquiries concerning the Emerald
Mountain Land Exchange in northwest Colorado. The Secretary referred your letter to the
Director ofthe Bureau of Land Management (BLM), who responded to you in a letter dated
December 31 , 2009, enclosed. My staff evaluated the Director' s response and confirmed the
accuracy of the information provided by BLM.

        In your letter, you asked the Secretary for information regarding the notification provided
to adjacent landowners. In his response, the Director stated that BLM used a variety of means to
notify the public of the proposed exchange and followed all applicable laws and regulations. He
indicated that the notice of the exchange proposal was published in four local newspapers and
that BLM held three public meetings in the area to gather input from the community. He also
stated that all exchange participants were notified directly of the authorized officer' s decision to
approve the exchange, as were jurisdictional, State and local governments, and the congressional
delegation, as required by regulation. Finally, he explained that while Ms. King is an adjacent
land owner, BLM did not notify her of the land exchange because she was not a direct party to
the exchange. Rather, Ms. King had a private, third-party agreement with a land exchange
participant who was directly notified of the exchange proposal and the exchange decision.

        We confirmed that BLM followed applicable laws and regulations regarding the
notification of adjacent landowners. BLM' s public notification process for this exchange also
conformed to the BLM "Land Exchange Handbook" (Handbook) regarding the publication of the
Notice of Exchange Proposal (NOEP). The Handbook specifies that the NOEP be sent to all
authorized users of the federal and non-federal land involved in the exchange, to local
government and elected officials, and to the U.S . congressional delegation(s) representing the
land involved in the exchange proposal. The Handbook states that BLM " ... may also send the
NOEP to ... adjoining landowners," but places no requirement on BLM to make such a
notification. We concluded that the guidance in this part of the Handbook is consistent with all
applicable laws and regulations regarding the notification of adjacent landowners.

       While reviewing BLM' s compliance with the Handbook, we noticed one small
inconsistency. Exhibit C of Illustration 4-1 of the Handbook provides an example of the type of
checklist BLM offices are expected to use to manage exchange projects. The checklist in the
illustration suggests that a step in the process would be to develop a mailing consultation list that
includes adjacent landowners. This suggested action is inconsistent with applicable laws,
regulations, and the body of the Handbook, which do not require that adjacent landowners be
notified. We have notified BLM realty officials of this issue so that the inconsistency can be
corrected in a future release of the Handbook.

        You also asked the Secretary to provide information on the appraisal. In his response, the
Director informed you that the parcels included in the exchange were appraised in accordance
with the appraisal standards set forth in the federal exchange regulations (43 CFR § 2200), and
that the Department of the Interior' s Appraisal Services Directorate approved the values for these
lands, as required by Departmental policy. The quality of land appraisals prepared in support of
the Department's land acquisition activities has long been a concern of this office, as poor
quality appraisals can result in federal property being undervalued. We therefore reviewed the
appraisal for the parcel of BLM land adjacent to Ms. King' s property and confirmed that the
appraisal appeared to have been prepared in accordance with federal appraisal standards.

        We found nothing to suggest that the transaction was not compliant with law, policy, and
regulation. BLM's notification of the public followed all applicable laws and regulations and the
land appraisal was consistent with federal appraisal standards. As such, our staff confirms the
accuracy of the information provided by BLM and concurs with the response made by the
Director.

       If you have any questions, please do not hesitate to call me at (202) 208-5745 or your
staff may call Kris Kolesnik at (202) 513-0326.

                                              Sincerely,



                                              Mary L. Kendall
                                              Acting Inspector General

Enclosure




                                                 2
                   United States Department of the Interior
                                   BUREAU OF LAND MANAGEMENT
                                         Washingto n, D.C. 20240
                                            http ://www.blm.gov
                                                                                [DEC   ~ ·. 1   2009
 The Honorable John Culberson
 House of Representatives
 Washington, DC 20515

 Dear Representative Culberson:

 I am writing in response to your letter of August 6,2009 to Secretary of the Interior Ken Salazar,
 regarding your constituent, Ms. Barbara King, and her inquiries regarding the Emerald Mountain
 Land Exchange in northwest Colorado. Secretary Salazar has asked me to respond on his behalf
 and I apologize for the delay. In your letter, you requested that We provide you and Ms. King
 with any information related to the appraisal of the property as well as the steps the Bureau of
 Land Management (BLM) took to notify the public of the exchange. In particular, you asked us
 to address the notification provided to adjacent landowners. You also asked for information
 about the agreement between the BLM and the facilitator, Western Land Group (WLG), and for
 information on the type of oversight mechanisms in place for land exchanges.

We appreciate the opportunity to clarify the issues raised by your constituent. In the late 1990s,
a group of citizens concerned about the possibility that Emerald Mountain would be sold by the
State of Colorado (State), formed a partnership . nam~d the Emerald Mountain Partnership (EMP),
for the purpose of protecting Emerald Mountain from private commercial or residential
development. The EMF worked with WLG and the State of Colorado Land Board to develop a
proposal to present to the BLM to effectuate an assembled land exchange under BLM's
exchange regulations at 43 CFR Part 2200. This assembled land exchange involved parcels of
BLM land that were deemed to be administratively inefficient to manage and therefore worthy of
disposal. The BLM transferred these parcels of land to the State in exchange for land of equal
value at Emerald Mountain. The State worked with WLG to sell the land they received to
private parties. For the administrative convenience of all involved, the exchange was conducted
using an escrow process so that all transactions were completed simultaneously.

Third-party facilitators, such as WLG, are not agents of the Federal govemment and freely
negotiate and participate in real estate transactions at their own risk. That is, at EMP ' s behest,
WLG looked for members of the public who might be interested in participating in the exchange.
WLG would then represent such members of the public in the exchange transaction. Any
compensation that WLG received was a result of financial transactions conducted between WLG
and the private parties that it represented. The BLM did not pay any compensation to WLG.

In 2004, pursuant to 43 CFR 2201.1 , the BLM entered into an Agreement to Initiate (A TI) with
all parties directly involved in the transaction, that is: EMF, WLG (as representative of members
of the public who were exchange participants), and the State. This ATI outlined the roles and
responsibilities of each of the entities in the land exchange, and included a transaction schedule
and costs to be shared. Copies of this document have been provided to Ms. King in response to
her Freedom of Information Act (FOIA) requests. This document and other supplementary
                                                                                                       2


 documents and reports related to the Emerald Mountain Exchange can be found at
 http ://Www.blm.gov/co/stlenifo/lsfo/plans/emerald_mtn.html, under the Documents/Reports
 section.

 The BLM used a variety of means to notify the public of the proposed exchange, following all
 applicable laws and regulations. Notice ofthe exchange proposal was published in four local
 newspapers. In 2005, the exchange was advertised with a Notice of Intent in the Craig Daily
 Press on February 11,18, 25, and March 4; the Hayden Valley Press on February 9, and March 2;
 the Steamboat Pilot February 13, and March 6; and the Moffat County Morning News on
 February 12, 20, 27, and March 6. A copy of the text of the announcement is enclosed.

 These public notices invited interested parties to submit comments to the BLM's Little Snake
 Field Office. The BLM also held three public meetings in the area to gather input from the
 public on March 7, 8 and 9, 2005 in Steamboat Springs, Oak Creek, and Hayden, respectively.

 All exchange participants were notified directly of the authorized officer' s decision to approve
 the exchange, as were jurisdictional, State and local governments, and the congressional
 delegation, as required by regulation. While Ms. King is an adjacent land owner, the BLM did
 not notify her directly of the land exchange, as she was not an exchange participant.

   From information provided by Ms. King's attorney, Mr. Michael Connelly, it appears that Ms .
  .Kinghad an indirect interest in the land exchange through a private, third-party agreement with a
 'land exchange participant. The exchange participant with whom Ms. King had an agreement
 ·was directly notified of the exchange proposal and the exchange decision. While the BLM is
  aware that Ms. King had an arrangement with the exchange participant regarding the eventual
  use and ownership of the parcel at issue, this agreement was a private matter and did not involve
  the BLM in any way. During the .public process and comment period, Ms. King did not raise any
  objections to the disposal of the parcel in question, nor did she at any time request to be
. considered a participant in the exchange.

The parcels included in the exchange wer~ appraised in accordance with the appraisal standards
set forth in the federal exchange regulations (43 CFR Part 2200). All reservations, restrictions,
and encumbrances that would be included in the conveyance documents for the lands were
identified and considered in the appraisal prepared for the properties. In accordance with
Departmental policy, the Department of the Interior' s Appraisal Services Directorate approved
the values for these lands.

The BLM Land Exchange Handbook, H-2200-1, sets out the various procedural steps and
identifies the officials responsible for completion of each step. See H -2200-1 , Illustration 1-1
(enclosed). Before an exchange may proceed, the Regional Solicitor' s Office, the BLM State
Director, the BLM National Land Exchange Team (Pg. 2-9 & 9-3 in BLM Land Exchange
Handbook, H-2200-1), and the Deputy Director of the BLM must all review the proposed
exchange. If the Deputy Director authorizes the exchange to proceed, the actual processing of
the exchange begins. A similar review occurs before the exchange is ultimately completed. The
Emerald Mountain land exchange was conducted according to this procedure. All appropriate
review and approval was obtained and there were no irregularities in the process.
                                                                                                  3



 As of November 2009, the BLM has responded to 15 FOIA requests from Ms. Iqng and her
 attorney. The information provided has ranged from copies of signed agreements and contracts,
 relevant sections of handbooks and memoranda that set forth BLM policy, copies of
 correspondence between entities within the BLM and also with other parties such as WLG,
 information related to the land appraisal process, and steps taken to notify the public of the
 exchange, including adjacent land owners. In its response to her FOIA requests, the BLM has
 provided Ms. King with comprehensive administrative records related to the land exchange. In
 response to a request from Ms. King, the BLM Colorado State Director, David Hunsacker
 thoroughly reviewed the Emerald Mountain Land Exchange and confirmed, by a letter dated
 August 27,2009, that the exchange was conducted properly.

Over the course of the summer of2009, Ms. King contacted the Department of the Interior's
Office of the Assistant Secretary of Lands and Minerals Management, as well as Secretary of the
Interior, Ken Salazar's office, with questions about the exchange. Please find a copy of Deputy
Assistant Secretary Ned Farquhar' s letter to Ms. King enclosed. Counsel representing Ms. King
submitted materials produced by Ms. King for consideration by the Department, and requested
that the Secretary rescind that portion of the exchange involving the parcel that was the subject
of Ms. King's third-party agreement. In July 2009, Representative John Salazar sent a letter on
Ms. King's behalf, requesting that Secretary Salazar have the Department's Inspector General, or
other appropriate Departmental official, examine the appraisal process used in the exchange.

Inquiries to date have provided nothing to suggest that the transaction was not conducted in
compliance with law, policy and regulation. As it appears that Ms. King's dispute is with a
private landowner regarding a third-party agreement to which the' BLM' was not a party, it is
unclear what further assistance the Department could provide in this matter.

Thank you again for your continued interest in the activities of the BLM and the Department
concerning the management of Federal public lands. If you have any questions or issues you
would like to discuss further, please do not hesitate to contact me at (202) 208-3801.

                                                Sincerely,

                                             (7~.~
                                               Robert V. Abbey /
                                               Director


Enclosures
